December 6, 2010

JULIE S. MOORE
SECRETARY OF THE BOARD OF GOVERNORS

SUBJECT: Audit Report – Postal Service Board of Governors’ Travel and
         Miscellaneous Expenses for Fiscal Year 2010
         (Report Number FT-AR-11-004)

This report presents the results of our audit of the Board of Governors’ (Board) travel
and miscellaneous expenses for fiscal year (FY) 2010 (Project Number
10BG001FT000). We conducted the audit in response to a Board resolution requiring
annual audits of its travel and miscellaneous expenses. The objective of the audit was
to determine whether the travel and miscellaneous expenses of the Board — including
external professional fees — were properly supported, reasonable, and in compliance
with Postal Service policies and procedures and Board policies. This audit addresses
financial risk. See Appendix A for additional information.

The Postal Reorganization Act of 1970, as amended, established the Board, which is
comprised of the postmaster general, deputy postmaster general, and nine governors
appointed by the president. The Board directs and controls the expenditures of the
Postal Service, reviews its practices and policies, and establishes objectives and goals
in accordance with Title 39 of the U.S. Code.

Conclusion

Travel and miscellaneous expenses totaling $136,353 and external professional fees
totaling $8,226 were properly supported, reasonable, and in compliance with U.S.
Postal Service and Board policies. Accordingly, we are not making any
recommendations.

Audit Comment

In FY 2010, the Board entered into agreements with two hotels1 for meetings and field
trips scheduled to be held outside the Washington D.C. area.2 In coordination with the
Customer and Industry Marketing Group, the Board appropriately obtained competitive

1
  Since each individual total was less than $10,000, the Postal Service considers this an agreement instead of a
contract, thereby allowing the Board’s executive administrator to execute them using her individual purchase card.
2
  Newport Beach, CA in January 2010; and Louisville, KY in June 2010.
Postal Service Board of Governors’ Travel and                                   FT-AR-11-004
 Miscellaneous Expenses for Fiscal Year 2010


bids for these agreements. However, one meeting and related field trip were
subsequently cancelled and these agreements did not contain language to protect the
Postal Service in the event of cancellation. Accordingly, we suggest the following best
practices to benefit the Postal Service when entering into any future agreements.
Specifically, we suggest the Postal Service:

         Incorporate language into the agreement which states that, prior to the hotel
          assessing a cancellation fee, the hotel and the Postal Service agree to attempt to
          hold a meeting of equal or greater value at the hotel within 12 months of the
          contracted date of the meeting and have the hotel credit the cancellation fee
          towards the next meeting.

         Propose a contract amendment to delete from any agreement a hotel’s request
          for an advance deposit. Postal Service policy3 states, “In most cases,the Postal
          Service pays for supplies or service after delivery. Paying for supplies or services
          before they are delivered is strongly discouraged.”

We are not making any recommendations in this report and, as a result, management
chose not to respond formally to this report.

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Lorie Nelson, director,
Financial Reporting, or me at 703-248-2100.




John E. Cihota
Deputy Assistant Inspector General
 for Financial Accountability

Attachment

cc: Joseph Corbett
    Vincent H. DeVito, Jr.
    Stephen J. Nickerson
    Jennie T. Coe
    Corporate Audit and Response Management




3
    FM-610-2003-1, Advance Payments.




                                                2
Postal Service Board of Governors’ Travel and                                                     FT-AR-11-004
 Miscellaneous Expenses for Fiscal Year 2010



                            APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

The Postal Reorganization Act of 1970, as amended, established the Board, which is
comprised of the postmaster general, deputy postmaster general, and nine governors
appointed by the president. As of September 30, 2010, the Board consisted of the
postmaster general, the deputy postmaster general, and eight governors.4

The Board directs and controls the expenditures of the Postal Service, reviews its
practices and policies, and establishes objectives and goals in accordance with Title 39
of the U.S. Code. On July 8, 1986, the Board passed Resolution Number 86-12, which
requires annual audits of the Board’s travel and miscellaneous expenses.

The Board generally meets monthly in Washington, D.C., or another location where
members can visit Postal Service facilities or large mailer operations. In FY 2010, the
Board held 28 meetings5 and incurred $136,353 in travel and miscellaneous expenses
and $8,226 in external professional fees.

OBJECTIVE, SCOPE, AND METHODOLOGY

Our objective was to determine whether the travel and miscellaneous expenses of the
Board — including external professional fees — were properly supported, reasonable,
and in compliance with Postal Service policies and procedures and Board policies. We
reviewed all 86 Board6 travel reimbursements processed under finance number 101099
through the National Accounting Oracle Financials Application – Accounts Payable
Excellence (NAOFA-APEX) System for travel and miscellaneous expenses incurred
during FY 2010. We also reviewed all Board professional fees incurred during the same
period at the request of the independent public accountant, Ernst & Young LLP.

We conducted this performance audit from March through December 2010 in
accordance with generally accepted government auditing standards and included such
tests of internal controls as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our report and conclusions based on our
audit objective. We believe that the evidence obtained provides a reasonable basis for
our report and conclusions based on our audit objective. Our tests of controls were
limited to those necessary to achieve our audit objective. Our procedures were not

4
  There was one vacancy as of September 30, 2010.
5
  Meetings include full Board regular, annual, and special meetings and committee meetings, but do not include other
official functions such as stamp dedication ceremonies. A governor may participate by telephone in these meetings
and, thus, not incur travel costs.
6
  The postmaster general and deputy postmaster general’s travel and representation expenses are not included in
the scope of this audit. They are included in the scope of the Postal Service officers’ travel and representation
expenses audit.




                                                         3
    Postal Service Board of Governors’ Travel and                                        FT-AR-11-004
     Miscellaneous Expenses for Fiscal Year 2010


    designed to provide assurance on internal controls. Consequently, we do not provide an
    opinion on such controls. Also, our audit does not provide absolute assurance of the
    absence of fraud or illegal acts, due to the nature of evidence and the characteristics of
    such activities.

    We assessed the reliability of the NAOFA-APEX system data by tracing selected
    financial information to supporting source documentation. For example, we verified
    Board travel payments recorded in NAOFA-APEX to original travel reimbursements. We
    determined the data were sufficiently reliable for the purposes of this report.

    PRIOR AUDIT COVERAGE

    We issued the following reports addressing Board travel and miscellaneous expenses.

                                             Final
                          Report            Report          Monetary
   Report Title           Number             Date            Impact              Report Results
Postal Service Board    FT-AR-10-002        11/5/2009          $0      Travel and miscellaneous expenses
of Governors’ Travel                                                   totaled $226,339 and external
and Miscellaneous                                                      professional fees totaled $58,245 and
Expenses for Fiscal                                                    were properly supported, reasonable,
Year 2009                                                              and in compliance with Board policies.
                                                                       We did not make any
                                                                       recommendations.
Postal Service Board    FT-AR-09-003       11/21/2008          $0      Travel and miscellaneous expenses
of Governors’ Travel                                                   totaled $116,241 and external
and Miscellaneous                                                      professional fees totaled $6,703 and
Expenses for Fiscal                                                    were properly supported and in
Year 2008                                                              compliance with Board policies.
                                                                       However, there was an internal control
                                                                       issue pertaining to the purchase and
                                                                       approval of professional services. The
                                                                       Board office took corrective action so
                                                                       we did not make any
                                                                       recommendations.
Postal Service Board    FT-AR-08-008        2/15/2008        $2,527     Travel and miscellaneous expenses
of Governors’ Travel                                                    totaled approximately $92,600 and
and Miscellaneous                                                       external professional fees totaled
Expenses for Fiscal                                                     $1,300 and were properly supported
Year 2007                                                               and in compliance with Board policies.
                                                                        However, management did not always
                                                                        comply with Postal Service policies
                                                                        and procedures pertaining to the
                                                                        approval and verification of Board
                                                                        travel vouchers. The Postal Service
                                                                        implemented our recommendation,
                                                                        which is now closed.




                                                        4
